App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 19-10376
-----------------------------------------------------------------------

CONEISHA L. SHERROD,
Plaintiff - Appellant
v.
UNITED WAY WORLDWIDE,
Defendant - Appellee
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:17-CV-758
-----------------------------------------------------------------------

(Filed Jul. 30, 2020)
Before OWEN, Chief Judge, and SOUTHWICK and
OLDHAM, Circuit Judges.
PER CURIAM:*
Coneisha Sherrod sued her former employer, the
United Way of Tarrant County. That entity is a member of United Way Worldwide, which Sherrod also sued.
Sherrod alleged her employment was terminated due
* Pursuant to 5TH CIR. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIR. R. 47.5.4.

App. 2
to complaints she made that her employer was violating the Employee Retirement Income Security Act and
42 U.S.C. § 1981. The claims against her employer
were settled by joint stipulation after a jury trial, but
her claims against United Way Worldwide were dismissed prior to the trial. She appeals seeking reinstatement of those claims, but we AFFIRM.
FACTUAL AND PROCEDURAL BACKGROUND
United Way Worldwide (“UWW’) is an international charity that through its local member organizations is engaged in nearly 1,800 communities around
the world. United Way of Tarrant County (“UWTC”) is
one of those members. In her complaint, Sherrod, the
former Vice President of Human Resources at UWTC,
described several incidents that she claimed led to her
termination. It causes awkward phrasing, but we will
use titles for some individuals because that is how
Sherrod identiﬁed them in her complaint.
First, Sherrod alleged that she discovered UWTC
failed to pay employee beneﬁts and comply with reporting requirements in accordance with the Employee
Retirement Income Security Act (“ERISA”). 29 U.S.C.
§ 1001 et seq. Sherrod reported her discovery to
UWTC’s Chief Executive Ofﬁcer (“CEO”). Sherrod also
alleged that when she was hired, the CEO told her he
would retire in four years and his successor had already been selected. Sometime after Sherrod’s conversation with the CEO, UWTC’s Senior Vice President
of Community Development, an African-American

App. 3
female, told Sherrod she was interested in the CEO position. Because the position was never posted to permit
others to apply, and the selection of the CEO’s successor was not announced, Sherrod “express[ed] concern”
to UWTC’s CEO that failure to follow protocol for selecting a new CEO could result in unlawful discrimination.
Following Sherrod’s comments, UWTC created a
committee to select the CEO’s successor. Sherrod was
neither a member of the committee nor otherwise involved in the selection. The naming of a new CEO
caused the Senior Vice President of Community Development to complain of racial discrimination. Sherrod
claims that UWTC, the chairman of its board, and
the CEO prevented Sherrod from investigating the
complaint – even though human resources was her
portfolio. Sherrod alleged UWTC settled this racial discrimination claim by giving the Senior Vice President
of Community Development a pay raise. Sometime after this incident, the Senior Vice President of Community Development was promoted to the role of
Executive Vice President of Community Development.
Sherrod further alleged that after UWTC’s partner agencies received letters explaining UWTC employees would not receive raises, UWTC board
members authorized a pay raise for the CEO. Sherrod
expressed concern to the chairman of the board regarding the CEO’s pay raise, but the “Chairman of the
Board expresse[d] frustration to [Sherrod] for raising
the concern.”

App. 4
After UWTC authorized a pay raise for the CEO,
the Executive Vice President of Community Development again complained of racial discrimination and retaliation because she did not receive a raise when she
was promoted to Executive Vice President. UWTC and
its CEO instructed Sherrod to meet with UWTC’s attorney regarding the complaint. According to Sherrod,
the CEO said that if the Executive Vice President of
Community Development ﬁled a lawsuit, “it would be
the kiss of death” for that vice president’s employment.
Sherrod alleged UWTC’s CEO and UWTC’s counsel
agreed that if another settlement was made with the
Executive Vice President of Community Development,
termination of that vice president’s employment must
be part of the settlement. According to Sherrod, she
disagreed with that settlement term and expressed her
disagreement to the CEO. The Executive Vice President of Community Development did later sue UWTC
for racial discrimination and retaliation.
Last, Sherrod alleged that four women complained
of mistreatment by UWTC’s Finance Manager. When
Sherrod attempted to investigate these complaints,
the Chief Operating Ofﬁcer (“COO”) told her that he
would conduct the investigation himself because the
four women were “out to get the ﬁnance manager” and
because he believed Sherrod did “not have the necessary skills to investigate discrimination or retaliation
complaints.” On February 21, 2017, sometime after the
incident with UWTC’s COO, Sherrod complained to
UWW that UWTC “retaliated against [Sherrod] for reporting and correcting ERISA violations, for opposing

App. 5
race discrimination, for being a witness to race discrimination, and because of her own race.” Sherrod
also reported to the Fort Worth division of the Equal
Employment Opportunity Commission (“EEOC”) that
UWTC was violating discrimination and retaliation
laws. Sherrod did not include claims against UWW in
this report to the EEOC.
According to Sherrod, she notiﬁed UWTC’s CEO of
her complaint to the EEOC. She told the CEO that the
COO breached the conﬁdentiality of the four complaining women, and Sherrod had contacted the EEOC on
their behalf. As alleged by Sherrod, on March 3, 2017,
the day after she reported discrimination and retaliation to the EEOC and CEO, UWTC ﬁred her, citing her
failure to appear for meetings as the reason. Following
Sherrod’s termination, she was sent a severance agreement conditioned on her release of any discrimination
or retaliation claims she may have had against UWTC
and UWW. Sherrod contacted UWW following her termination and complained about her dismissal. Sherrod
alleged that even though UWW told her it would review her termination, a UWW representative later
contacted her to explain that UWW would “not be taking any action to help her.”
On September 18, 2017, Sherrod ﬁled suit in the
United States District Court for the Northern District
of Texas against UWTC and UWW. She claimed UWTC
and UWW violated Section 510 of ERISA by “discharging, suspending, expelling, or discriminating against
Sherrod because she gave information and was willing to testify about violations of ERISA related to

App. 6
employee beneﬁt plans,” and Section 1981 by “discriminating and retaliating against Sherrod” because of her
race.
UWW moved for dismissal of Sherrod’s claims under Federal Rule of Civil Procedure 12(b)(6). Sherrod
responded by ﬁling an amended complaint, and UWW
again moved to dismiss. On April 18, 2018, the district
court dismissed Sherrod’s claims against UWW without prejudice, allowing her to ﬁle another amended
complaint against UWW. Sherrod ﬁled notice informing the district court she would not ﬁle another
amended complaint against UWW. Instead, she would
“stand on the allegations made in her ﬁrst amended
complaint.” On July 12, 2018, the district court dismissed Sherrod’s claims against UWW with prejudice.
Following the dismissal of UWW, Sherrod proceeded to trial against UWTC on her Section 1981
claim. A jury rendered a verdict in her favor. Sherrod
and UWTC then settled her Section 510 claim and ﬁled
a joint stipulation dismissing all other claims Sherrod
may have had against UWTC. The same day that Sherrod and UWTC ﬁled a joint stipulation, Sherrod ﬁled a
notice of appeal from the dismissal of her claims
against UWW.
DISCUSSION
Our review is de novo of a dismissal for failure to
state a claim under Federal Rule of Civil Procedure
12(b)(6). Body by Cook, Inc. v. State Farm Mut. Auto.
Ins., 869 F.3d 381, 385 (5th Cir. 2017). “To survive a

App. 7
motion to dismiss, the plaintiff must plead ‘enough
facts to state a claim to relief that is plausible on its
face.’ ” Id. (quoting Bell Atl. Corp. v. Twombly, 550 U.S.
544, 555 (2007)). “A claim is facially plausible when the
plaintiff pleads factual content that allows the court to
draw the reasonable inference that the defendant is liable for the misconduct alleged.” Id. (quoting Ashcroft
v. Iqbal, 556 U.S. 662, 678 (2009)). On appeal, we are
not concerned with whether the plaintiff was likely to
succeed on the claims but only whether the complaint
contains any legally cognizable claims that are plausible. Id.
Sherrod brought clams against UWW both under
ERISA and Section 1981. We examine them in that order.
I.

ERISA retaliation claim

“ERISA is a comprehensive statute designed to
promote the interests of employees and their beneﬁciaries in employee beneﬁt plans.” Ingersoll-Rand Co.
v. McClendon, 498 U.S. 133, 137 (1990). Section 510
provides: “It shall be unlawful for any person to discharge, ﬁne, suspend, expel, or discriminate against
any person because he has given information or has
testiﬁed or is about to testify in any inquiry or proceeding relating to this chapter or the Welfare and Pension
Plans Disclosure Act.” 29 U.S.C. § 1140.
In dismissing Sherrod’s Section 510 claim against
UWW, the district court concluded that although the
“Fifth Circuit has not spoken directly to the issue of

App. 8
whether an employment relationship is required” to
bring a case under Section 510, caselaw implied that
an employment relationship was the “sine qua non of
a § 510 claim.” Six months after the district court’s dismissal, we speciﬁcally held that Section 510 claims
“may be maintained against non-employers.” Manuel
v. Turner Indus. Grp., L.L.C., 905 F.3d 859, 871 (5th Cir.
2018). In Manuel, though, we had not addressed the
circumstances under which a non-employer may be liable under Section 510.
We decline to reach a conclusion on these legal issues concerning the reach of Section 510 liability. Even
if UWW were a proper defendant and could be liable
under Section 510, and even if Sherrod’s unsolicited internal complaint was a statutorily protected activity,1
Sherrod still failed to plead a case. UWW did not “discharge, ﬁne, suspend, [or] expel” Sherrod within the
meaning of Section 510. There also is not anything in
Sherrod’s complaint that sets out any facts explaining
1

We recognize that the circuits are split over what constitutes statutorily protected activity within the meaning of Section
510. Currently, the Fifth, Seventh, and Ninth Circuits consider
unsolicited, informal complaints to be protected activity, and the
Second, Third, Fourth and Sixth Circuits have reached contrary
conclusions. Compare Anderson v. Elec. Data Sys. Corp., 11 F.3d
1311, 1314 (5th Cir. 1994), George v. Junior Achievement of Cent.
Ind., Inc., 694 F.3d 812, 816-17 (7th Cir. 2012), and Hashimoto v.
Bank of Haw., 999 F.2d 408, 411 (9th Cir. 1993), with Nicolaou v.
Horizon Media, Inc., 402 F.3d 325, 329 (2d Cir. 2005), Edwards v.
A.H. Cornell & Son, Inc., 610 F.3d 217 (3d Cir. 2010), King v. Marriott Int’l, Inc., 337 F.3d 421, 426-28 (4th Cir. 2003), and Sexton
v. Panel Processing, Inc., 754 F.3d 332-42 (6th Cir. 2014). Admittedly, however, Anderson does not provide analysis on the topic
and is not very clear.

App. 9
how UWW discriminated against her. Dismissal was
proper.
II.

Section 1981 claims

Section 1981 provides that “[a]ll persons within
the jurisdiction of the United States shall have the
same right in every State and Territory to make and
enforce contracts, . . . as is enjoyed by white citizens.”
42 U.S.C. § 1981(a). Section 1981 reaches “the making,
performance, modification, and termination of contracts,
and the enjoyment of all beneﬁts, privileges, terms, and
conditions of the contractual relationship.” § 1981(b).
As with the open issues about Section 510 that we just
pretermitted, this court has not resolved whether Section 1981 creates liability for a non-contracting party
who interferes with making and enforcing a plaintiff ’s
contract. See Bellows v. Amoco Oil Co., 118 F.3d 268,
274 (5th Cir. 1997). Yet again, we start with the assumption that the claim Sherrod tries to make is legally cognizable. Even if it is, the claim fails if Sherrod
did not allege facts that plausibly support the claim.
We thus ﬁrst examine the factual assertions.
To state a claim of discrimination under Section
1981, “a plaintiff must allege facts in support of the
following elements: (1) the plaintiff is a member of a
racial minority; (2) an intent to discriminate on the basis of race by the defendant; and (3) the discrimination
concerns one or more of the activities enumerated in
the statute.” Green v. State Bar of Tex., 27 F.3d 1083,
1086 (5th Cir. 1994). Sherrod successfully pled her

App. 10
status as a racial minority but failed to allege discriminatory intent. Actually, she alleged the opposite. The
facts as stated by Sherrod about her communication
with UWW indicate that the organization was sympathetic toward her. Nothing in Sherrod’s stated facts indicated that UWW acted with racial animus. Sherrod’s
assertion that UWW “participated” in or “should have
prevented” her termination is not enough to make her
claim of discrimination by UWW plausible. She needed
to allege facts sufﬁcient to support an inference of discriminatory intent. Body by Cook, 869 F.3d at 387 n.1.
Similarly, Sherrod failed to allege facts to support
her claim of retaliation under Section 1981. “To assert
a successful [Section] 1981 retaliation claim, [a plaintiff ] must show (1) that it engaged in activities protected by [Section] 1981; (2) that an adverse action
followed; and (3) a causal connection between the protected activities and adverse action.” White Glove
Stafﬁng, Inc. v. Methodist Hosps. of Dallas, 947 F.3d
301, 308 (5th Cir. 2020). Even assuming that Sherrod
adequately pled the ﬁrst two elements, she failed to allege facts supporting a causal connection between her
protected activity and the adverse action that followed.
Sherrod argues that the timeline of events in her case
supports an inference that UWW participated in her
termination. According to Sherrod, on February 21,
2017, she notiﬁed UWW that UWTC was retaliating
against her for reporting ERISA violations and for opposing racial discrimination, for being a witness to racial discrimination, and because of her own race, and
then on March 3, 2017, she was terminated. Although

App. 11
a plaintiff may rely on temporal proximity to support
a causal nexus, see Clark Cnty. Sch. Dist. v. Breeden,
532 U.S. 268, 273 (2001), Sherrod alleged no facts supporting an inference that UWW actually did anything
that affected her employment.
Sherrod’s allegation that UWW could have played
a role in her termination is insufﬁcient to make her
claim facially plausible. See Iqbal, 556 U.S. at 678.
AFFIRMED.

App. 12
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
CONEISHA L. SHERROD,

§
§
Plaintiff,
§
v.
§ Civil Action No.
UNITED WAY OF TARRANT § 4-17-cv-00758-O
§
COUNTY,
§
Defendant.
§
CHARGE OF THE COURT
(Filed Feb. 8, 2019)
MEMBERS OF THE JURY:
It is my duty and responsibility to instruct you on
the law you are to apply in this case. The law contained
in these instructions is the only law you may follow. It
is your duty to follow what I instruct you the law is,
regardless of any opinion that you might have as to
what the law ought to be.
If I have given you the impression during the trial
that I favor either party, you must disregard that impression. If I have given you the impression during the
trial that I have an opinion about the facts of this case,
you must disregard that impression. You are the sole
judges of the facts of this case. Other than my instructions to you on the law, you should disregard anything
I may have said or done during the trial in arriving at
your verdict.

App. 13
You should consider all the instructions about the
law as a whole and regard each instruction in light of
the others, without isolating a particular statement or
paragraph.
The testimony of the witnesses and other exhibits
introduced by the parties constitute the evidence. The
statements of counsel are not evidence; they are only
arguments. It is important for you to distinguish between the arguments of counsel and the evidence on
which those arguments rest. What the lawyers say or
do is not evidence. You may, however, consider their
arguments in light of the evidence that has been admitted and determine whether the evidence admitted
in this trial supports the arguments. You must determine the facts from all the testimony that you have
heard and the other evidence submitted. You are the
judges of the facts, but in ﬁnding those facts, you must
apply the law as I instruct you.
You are required by law to decide the case in a fair,
impartial, and unbiased manner, based entirely on the
law and on the evidence presented to you in the courtroom. You may not be inﬂuenced by passion, prejudice,
or sympathy you might have for the plaintiff or the defendant in arriving at your verdict.
Do not let bias, prejudice or sympathy play any
part in your deliberations. All persons, including corporations, are equal before the law and must be treated
as equals in a court of justice.
The fact that a person brought a lawsuit and is in
court seeking damages creates no inference that the

App. 14
person is entitled to a judgment. Anyone may make a
claim and ﬁle a lawsuit. The act of making claim in a
lawsuit, by itself, does not in any way tend to establish
that claim and is not evidence
Plaintiff Coneisha Sherrod has the burden of proving her case by a preponderance of the evidence. To establish by a preponderance of the evidence means to
prove something is more likely so than not so. If you
ﬁnd that Plaintiff Coneisha Sherrod has failed to prove
any element of her claim by a preponderance of the evidence, then she may not recover on that claim.
The evidence you are to consider consists of the
testimony of the witnesses, the documents and other
exhibits admitted into evidence, and any fair inferences and reasonable conclusions you can draw from
the facts and circumstances that have been proven.
Generally speaking, there are two types of evidence. One is direct evidence, such as testimony of an
eyewitness. The other is indirect or circumstantial evidence. Circumstantial evidence is evidence that
proves a fact from which you can logically conclude another fact exists. As a general rule, the law makes no
distinction between direct and circumstantial evidence, but simply requires that you ﬁnd the facts from
a preponderance of all the evidence, both direct and circumstantial.
You alone are to determine the questions of credibility or truthfulness of the witnesses. In weighing
the testimony of the witnesses, you may consider the
witness’s manner and demeanor on the witness stand,

App. 15
any feelings or interest in the case, or any prejudice or
bias about the case, that he or she may have, and the
consistency or inconsistency of his or her testimony
considered in the light of the circumstances. Has the
witness been contradicted by other credible evidence?
Has he or she made statements at other times and
places contrary to those made here on the witness
stand? You must give the testimony of each witness the
credibility that you think it deserves.
In determining the weight to give to the testimony
of a witness, consider whether there was evidence that
at some other time the witness said or did something,
or failed to say or do something, that was different from
the testimony given at the trial.
A simple mistake by a witness does not necessarily mean that the witness did not tell the truth as
he or she remembers it. People may forget some things
or remember other things inaccurately. If a witness
made a misstatement, consider whether that misstatement was an intentional falsehood or simply an innocent mistake. The signiﬁcance of that may depend on
whether it has to do with an important fact or with
only an unimportant detail.
Even though a witness may be a party to the action and therefore interested in its outcome, the testimony may be accepted if it is not contradicted by direct
evidence or by any inference that may be drawn from
the evidence, if you believe the testimony.
You are not to decide this case by counting the
number of witnesses who have testiﬁed on the

App. 16
opposing sides. Witness testimony is weighed; witnesses are not counted. The test is not the relative
number of witnesses, but the relative convincing force
of the evidence. The testimony of a single witness is
sufﬁcient to prove any fact, even if a greater number of
witnesses testiﬁed to the contrary, if after considering
all of the other evidence, you believe that witness.
When knowledge of technical subject matter may
be helpful to the jury, a person who has special training
or experience in that technical ﬁeld is permitted to
state his or her opinion on those technical matters.
However, you are not required to accept that opinion.
As with any other witness, it is up to you to decide
whether to rely on it.
Instruction 1: Retaliation Claim
Plaintiff Coneisha Sherrod claims that she was retaliated against by Defendant United Way of Tarrant
County for engaging in activity protected by Section
1981. Plaintiff Coneisha Sherrod claims that she reported and opposed race discrimination and participated in an investigation of race discrimination.
Plaintiff Coneisha Sherrod claims that Defendant
United Way of Tarrant County retaliated against her
for at least one of those actions by terminating her
employment.
Defendant United Way of Tarrant County denies
Plaintiff Coneisha Sherrod’s claims and contends
that it terminated Plaintiff Coneisha Sherrod’s

App. 17
employment for a legitimate, non-retaliatory reason—
insubordination for refusing to meet with her manager.
It is unlawful for an employer to retaliate against
an employee for engaging in activity protected by Section 1981. To prove unlawful retaliation, Plaintiff
Coneisha Sherrod must prove by a preponderance of
the evidence that:
1.

Plaintiff Coneisha Sherrod engaged in activity protected by Section 1981. Based on the
facts in this case, to prove she engaged in a
protected activity, Plaintiff must prove that
she reported or opposed racial discrimination,
or participated in an investigation of a race
discrimination claim;

2.

Defendant United Way of Tarrant County terminated Plaintiff Coneisha Sherrod’s employment; and

3.

Defendant United Way of Tarrant County’s
decision to terminate Plaintiff Coneisha Sherrod’s employment was on account of her protected activity.

You need not find that the only reason for Defendant’s decision was Plaintiff Coneisha Sherrod’s engagement in the protected activity. But you must ﬁnd
that Defendant’s decision to terminate her employment would not have occurred in the absence of—but
for—her engagement in the protected activity.
If you disbelieve the reason Defendant has given
for its decision, you may, but are not required to, infer

App. 18
that Defendant would not have decided to terminate
her employment but for her engaging in the protected
activity.
Question No. 1.
Do you ﬁnd that Plaintiff Coneisha Sherrod
would not have had her employment terminated but for reporting or opposing race
discrimination, or participating in an investigation of a race discrimination claim?
Answer “Yes” or “No.”
Yes
If you answer “Yes” to Question No. 1, then
proceed to answer Question No. 2. If you answer “No” to Question No. 1, have your foreperson date and sign the verdict in the
appropriate location.
Instruction 2: Damages
If you found that Defendant United Way of Tarrant County discharged Plaintiff Coneisha Sherrod
for engaging in protected activity, then you must determine whether such conduct has caused Plaintiff Coneisha Sherrod damages and, if so, you must determine
the amount of those damages. You should not conclude
from the fact that I am instructing you on damages
that I have any opinion as to whether Plaintiff Coneisha Sherrod has proved liability.

App. 19
Plaintiff Coneisha Sherrod must prove her damages by a preponderance of the evidence. Your award
must be based on evidence and not on speculation or
guesswork. On the other hand, Plaintiff Coneisha
Sherrod need not prove the amount of her losses with
mathematical precision, but only with as much deﬁnitiveness and accuracy as the circumstances permit.
You should consider the following elements of actual damages, and no others:
1.

The amount of back pay and beneﬁts Plaintiff
Coneisha Sherrod would have earned in her
employment with Defendant if her employment had not been terminated from date of
adverse employment action to the date of your
verdict, minus the amount of earnings and
beneﬁts that Plaintiff received from other employment during that time;

2.

The amount of other damages sustained by
Plaintiff Coneisha Sherrod supported by the
evidence, such as pain, suffering, inconvenience, mental anguish, loss of enjoyment of
life, and other noneconomic losses.

Back pay includes the amounts the evidence
shows Plaintiff Coneisha Sherrod would have earned
had she remained an employee of Defendant United
Way of Tarrant County. These amounts include wages
or salary and such beneﬁts as life and health insurance, stock options, and contributions to retirement.
You must subtract the amounts of earnings and beneﬁts Defendant United Way of Tarrant County proves

App. 20
by a preponderance of the evidence Plaintiff Coneisha
Sherrod received during the period in question.
There is no exact standard for determining actual
damages. You are to determine an amount that will
fairly compensate Plaintiff Coneisha Sherrod for the
harm she has sustained. Do not include as actual damages interest on wages or beneﬁts.
In addition to actual damages, you may consider
whether to award punitive damages. Punitive damages are damages designed to punish a defendant and
to deter similar conduct in the future.
You may award punitive damages if Plaintiff
Coneisha Sherrod proves by a preponderance of the evidence that:
1.

The individual who engaged in the retaliatory act or practice was acting in a managerial capacity;

2.

He engaged in the retaliatory act or practice while acting in the scope of his employment; and

3.

He acted with malice or reckless indifference to Plaintiff Coneisha Sherrod’s federally protected right to be free from
retaliation.

If Plaintiff Coneisha Sherrod has proved these
facts, then you may award punitive damages, unless
Defendant United Way of Tarrant County proves by a
preponderance of the evidence that the conduct or act

App. 21
was contrary to its good-faith efforts to prevent discrimination or retaliation in the workplace.
In determining whether an employee of Defendant
United Way of Tarrant County was a supervisor or
manager for Defendant United Way of Tarrant County,
you should consider the type of authority the employee
had over Plaintiff Coneisha Sherrod and the type of
authority for employment decisions Defendant United
Way of Tarrant County authorized the employee to
make.
An action is in reckless indifference to Plaintiff
Coneisha Sherrod’s federally protected rights if it was
taken in the face of a perceived risk that the conduct
would violate federal law. Plaintiff Coneisha Sherrod
is not required to show egregious or outrageous retaliation to recover punitive damages. Proof that Defendant United Way of Tarrant County engaged in
intentional retaliation, however, is not enough in itself
to justify an award of punitive damages.
In determining whether Defendant United Way of
Tarrant County made good-faith effort to prevent retaliation in the workplace, you may consider whether
it adopted anti-retaliation policies, whether it educated its employees on the federal anti-retaliation
laws, how it responded to Plaintiffs complaint of retaliation, and how it responded to other complaints of retaliation.
If you ﬁnd that Defendant United Way of Tarrant
County acted with malice or reckless indifference to
Plaintiff Coneisha Sherrod’s rights and did not make a

App. 22
good-faith effort to comply with the law, then in addition to any other damages you ﬁnd Plaintiff Coneisha
Sherrod is entitled to receive, you may, but are not required to, award Plaintiff Coneisha Sherrod an additional amount as punitive damages for the purposes
of punishing the Defendant United Way of Tarrant
County for engaging in such wrongful conduct and deterring Defendant United Way of Tarrant County and
others from engaging in such conduct in the future. You
should presume that Plaintiff Coneisha Sherrod has
been made whole for her injuries by any actual damages you have awarded.
If you decide to award punitive damages, you
should consider the following in deciding the amount:
1.

How reprehensible Defendant United Way of
Tarrant County’s conduct was. You may consider whether the harm Plaintiff Coneisha
Sherrod suffered was physical or economic or
both; whether there was violence, intentional
malice, or reckless disregard for human
health or safety; whether Defendant United
Way of Tarrant County’s conduct that harmed
Plaintiff Coneisha Sherrod also posed a risk of
harm to others; whether there was any repetition of the wrongful conduct or there was
past conduct of the same sort that harmed
Plaintiff Coneisha Sherrod.

2.

How much harm Defendant United Way of
Tarrant County’s wrongful conduct caused
Plaintiff Coneisha Sherrod and could cause
her in the future.

App. 23
3.

What amount of punitive damages, in addition to the other damages already awarded, is
needed, considering Defendant United Way of
Tarrant County’s ﬁnancial condition, to punish Defendant United Way of Tarrant County
for its conduct toward Plaintiff Coneisha
Sherrod and to deter Defendant United Way
of Tarrant County and others from similar
wrongful conduct in the future.

4.

The amount of ﬁnes and civil penalties applicable to similar conduct.

The amount of any punitive damages award
should bear a reasonable relationship to the harm
caused Plaintiff.
Question No. 2
What sum of money, if paid now in cash, would
fairly and reasonably compensate Plaintiff
Coneisha Sherrod for the damages, if any, you
have found Defendant United Way of Tarrant
County caused her?
Answer in dollars and cents for the following
items and none other:
Past and future pain and suffering, inconvenience, mental anguish, and loss of enjoyment
of life.
$ 300,000.00
Wages and beneﬁts from the date of termination to today.
$ 131,139.00

App. 24
If you answered Question No. 2 with a sum of
money greater than zero dollars, then answer
Question No. 3. If not, the foreperson should
date and sign the verdict below.
Question No. 3
Do you ﬁnd that Plaintiff Coneisha Sherrod
should be awarded punitive damages?
Answer “Yes” or “No.”
No
If you answered “Yes” to Question No. 3, then
answer Question No. 4. If not, the foreperson
should date and sign the verdict below.
Question No. 4
What sum of money should be assessed
against Defendant United Way of Tarrant
County as punitive damages?
Answer in dollars and cents:
$
July Deliberations
It is now your duty to deliberate and to consult
with one another in an effort to reach a verdict. Each
of you must decide the case for yourself, but only after
an impartial consideration of the evidence with your
fellow jurors. During your deliberations, do not hesitate to re-examine your own opinions and change your

App. 25
mind if you are convinced that you were wrong. But do
not give up on your honest beliefs because the other
jurors think differently, or just to ﬁnish the case.
Remember at all times, you are the judges of the
facts. When you go into the jury room to deliberate, you
may take with you a copy of this charge, and the exhibits that I have admitted into evidence. You must select
a presiding juror to guide you in your deliberations and
to speak for you here in the courtroom.
Your verdict must be unanimous. After you have
reached a unanimous verdict, your presiding juror
must ﬁll out the answers to the written questions on
the verdict form and sign and date it. After you have
concluded your service and I have discharged the jury,
you are not required to talk with anyone about the
case.
If you need to communicate with me during your
deliberations, the presiding juror should write the inquiry and give it to the court security ofﬁcer. After consulting with the attorneys, I will respond either in
writing or by meeting with you in the courtroom. Keep
in mind, however, that you must never disclose to anyone, not even to me, your numerical division on any
question.
You may now proceed to the jury room to begin
your deliberations.
/s/ [Illegible]
Presiding Judge

App. 26
2/7/19
Date
Jury Certification
The foregoing answers are the unanimous answers of the jury.

Foreperson
2-8-19
Date

App. 27
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
CONEISHA L. SHERROD,

§
§
Plaintiff,
§
v.
§ Civil Action No.
UNITED WAY WORLDWIDE, § 4-17-cv-0758-O
§
and UNITED WAY OF
§
TARRANT COUNTY,
§
Defendants.
ORDER OF DISMISSAL WITH PREJUDICE
(Filed Jul. 12, 2018)
In the Court’s April 18, 2018 Order, Plaintiff ’s
claims against United Way Worldwide (“UWW”) were
dismissed without prejudice, giving Plaintiff an option
to file an amended complaint. Plaintiff filed a notion
of decision not to amend complaint (ECF No. 27), ﬁled
May 2, 2018. Therefore,
IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that all of Plaintiff ’s claims against Defendant UWW in the above-styled and numbered cause
are DISMISSED WITH PREJUDICE; and it is further
ORDERED, ADJUDGED, AND DECREED
that all costs, expenses, and attorney fees

App. 28
SO ORDERED on this 12th day of July, 2018.
/s/ Reed O’Connor
Reed O’Connor
UNITED STATES
DISTRICT JUDGE

App. 29
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
CONEISHA L. SHERROD, §
§
Plaintiff,
§
v.
§
§ Civil Action
UNITED WAY WORLDWIDE and UNITED WAY § No. 4:17-cv-00758-O
§
OF TARRANT COUNTY,
§
Defendants.
§
§
§
ORDER
(Filed Apr. 18, 2018)
Before the Court are Defendant United Way
Worldwide’s (“UWW”) Motion to Dismiss1 Plaintiff ’s
First Amended Complaint and Brief in Support (ECF
No. 20), ﬁled November 30, 2017; Plaintiff Coneisha L.
Sherrod’s Response (ECF No. 23), ﬁled December 21,
2017; and Defendant’s Reply (ECF No. 24), ﬁled January 4, 2018. Having considered the motion, related
brieﬁng, and applicable law, the Court ﬁnds that Defendant’s Motion to Dismiss (ECF No. 20) should be
and is hereby GRANTED.

1

Defendant United Way of Tarrant County is not a party to
this motion.

App. 30
I.

BACKGROUND

Plaintiff brings this case under the Civil Rights
Act of 1866 and the Employee Retirement Income Security Act (“ERISA”). 1st Am. Compl. ¶ 4, ECF No. 15.
Plaintiff, an African-American woman, was the VicePresident of Human Resources for United Way of Tarrant County (“UWTC”), a member organization of
UWW. Id. ¶ 79. UWW controls its member organizations through the licensing of its brand, which includes
membership requirements, reporting, oversight, and
training. Id. ¶ 85. UWW requires its member organizations to maintain “the highest standards of excellence
and accountability, including the prudent use of ﬁnances, and accurate and honest disclosures of information.” Id. ¶ 90. If a member organization violates
any of its requirements, UWW can act by removing the
head of the organization, removing the membership of
the board of the organization, or terminating the license of the brand. Id. ¶ 91. If a member organization
violates the law, UWW will ﬁrst ask the organization
to act on its own to correct the problem before intervening. Id. ¶ 106.
Plaintiff alleges three separate episodes that led
up to her ﬁring and form the basis of her claims. The
ﬁrst episode relates to UWTC’s management of its employee beneﬁts under ERISA. Id. ¶¶ 16, 17–18, 21. In
the course of her duties at UWTC, Plaintiff alleges she
discovered discrepancies, violations of federal reporting laws, and mismanagement of the beneﬁts established by UWTC. Id. ¶ 24. Plaintiff related this
information to UWTC and its Chief Executive Ofﬁcer

App. 31
(“CEO”), who were frustrated with Plaintiff, but told
her they would look into the problem. Id. ¶ 20.
The second episode relates to UWTC’s early selection of a CEO candidate to replace the current CEO
upon his retirement. When UWTC hired Plaintiff, the
current CEO told Plaintiff that he would retire in four
years’ time and that UWTC had already chosen his replacement—the current Senior Vice-President of Resource Development and Chief Development Ofﬁcer
(“CDO”). Id. ¶ 23. Sometime after this conversation,
UWTC’s current Senior Vice-President of Community
Development (“VP of Community Development”)—
who is an African-American woman and was unaware
that UWTC had already chosen a replacement CEO—
told Plaintiff that she was interested in the CEO position. Id. ¶ 28. Plaintiff then spoke with the then-current CEO about her concern that UWTC was not
following proper protocols for selecting his replacement and that UWTC should follow those protocols in
order to avoid unlawful discrimination. Id. ¶ 30. After
this conversation, UWTC created a planning committee to select the next CEO, but UWTC did not include
Plaintiff in the creation or stafﬁng of this committee.
Id. ¶ 32.
In response, the VP of Community Development
brought a complaint against UWTC for racial discrimination. Id. ¶ 34. Plaintiff began to investigate the complaint, but UWTC, its Chairman of the Board, and its
CEO prevented her from fully participating in the investigation. Id. ¶ 35. Eventually, the presumptive CEO
nominee resigned and UWTC settled the complaint by

App. 32
increasing the VP of Community Development’s pay
and promoting her to Executive VP. Id. ¶¶ 36–37.
UWTC then hired a white male as the new Chief Operating Ofﬁcer (“COO”) and Chief Development Ofﬁcer
(“CDO”) and told him that he will be CEO when the
current CEO retires. Id. ¶¶ 42–43.
Additionally, when the Chairman of the Board
gave the current CEO a raise, Plaintiff expressed concern to the Chairman that the CEO was receiving a
raise when employees of UWTC’s partner agencies
were not. Id. ¶ 45. The Chairman then expressed frustration to Plaintiff for voicing her concern and approved the CEO’s raise. Id. ¶¶ 46–47. The VP of
Community Development, who did not receive a raise
when she was promoted to Executive VP,2 complained
again to the UWTC about race discrimination because
she was not told about the opportunity given to the
white male, and she was not considered for the CEO
position. Id. ¶ 48. UWTC and the current CEO then
asked Plaintiff to meet with UWTC’s attorneys to address the now-Executive VP’s new complaint. Id. ¶ 49.
The third and ﬁnal episode occurred just before
Plaintiff ’s termination. Around that time, four women
brought complaints to Plaintiff that the UWTC Finance Manager mistreated them, but when Plaintiff
2

The settlement for the VP of Community Development’s
ﬁrst complaint included an increase in pay but the complaint did
not make clear if that counted as a raise for the promotion. The
complaint merely states that the VP of Community Development
brought a complaint because she did not receive a raise along with
her promotion. 1st Am. Compl. ¶ 48, ECF No. 15.

App. 33
attempted to address these complaints, the COO took
over the investigation, telling Plaintiff that she did not
have the necessary skills to investigate discrimination
or retaliation complaints. Id. ¶¶ 61–63. Plaintiff then
ﬁled a complaint with UWW that UWTC was violating
discrimination and retaliation laws against her and
others and contacted the Fort Worth division of the
EEOC. Id. ¶¶ 64, 66. The day after, UWTC informed
Plaintiff that she had breached the conﬁdentiality of
the women’s complaints. Id. ¶ 70. UWTC claims it terminated Plaintiff ’s employment for this violation and
for missing meetings.
On February 21, 2017, Plaintiff informed UWW’s
Director of Membership Accountability that UWTC retaliated against her for reporting and correcting
ERISA violations, for opposing race discrimination, for
being a witness to race discrimination, and because of
her own race. Id. ¶ 118. UWTC terminated Plaintiff on
March 3, 2017 and sent her a severance agreement on
March 13, 2017, conditioned on release of her discrimination and retaliation claims, including UWW as an
afﬁliate of UWTC. Id. ¶¶ 121–22. UWW informed
Plaintiff on March 16, 2017 that it is reviewing her termination, Plaintiff told her story again on May 23,
2017 to UWW, who told her that it will investigate further. Id. ¶¶ 123–25. Later, the Director called Plaintiff
back and informed Plaintiff that UWW would not assist her. Id. ¶ 74. Plaintiff claims that UWW was aware
of the Executive VP’s complaints against UWTC and
the UWTC’s exclusion of four African-American executives. Id. ¶ 114.

App. 34
On September 18, 2017, Plaintiff ﬁled suit against
UWTC and UWW for violations of 42 U.S.C. § 1981
(“§ 1981”) for racial discrimination that prevented her
from making contracts and retaliation for reporting it.
She also brought claims under ERISA § 510 (“§ 510”)
against both Defendants for retaliation after bringing
forward her concerns about UWTC’s employee beneﬁts
plans. UWW moved to dismiss Plaintiff ’s ERISA and
§ 1981 claims against it under Federal Rule of Civil
Procedure 12(b)(6), arguing that it is not liable to
Plaintiff because Plaintiff did not establish that she
had an employment relationship with UWW.
II.

LEGAL STANDARD

Federal Rule of Civil Procedure 8(a) requires that
a claim for relief contain “a short and plain statement
of the claim showing that the pleader is entitled to relief.” FED. R. CIV. P. 8(a)(2). Rule 8 does not require detailed factual allegations, but “it demands more than
an unadorned, the-defendant-unlawfully-harmed-me
accusation.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555
(2007)). If a plaintiff fails to satisfy Rule 8(a), the defendant may ﬁle a motion to dismiss the plaintiff ’s
claims under Federal Rule of Civil Procedure 12(b)(6)
for “failure to state a claim upon which relief may be
granted.” FED. R. CIV. P. 12(b)(6).
To defeat a motion to dismiss pursuant to Rule
12(b)(6), a plaintiff must plead “enough facts to state a
claim to relief that is plausible on its face.” Twombly,

App. 35
550 U.S. at 570. “A claim has facial plausibility when
the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the defendant is liable for the misconduct alleged.” Iqbal, 556 U.S.
at 663 (citing Twombly, 550 U.S. at 556). “The plausibility standard is not akin to a ‘probability requirement,’ but it asks for more than a sheer possibility that
a defendant has acted unlawfully.” Iqbal, 556 U.S. at
663 (quoting Twombly, 550 U.S. at 556). “Where a complaint pleads facts that are ‘merely consistent with’ a
defendant’s liability, it ‘stops short of the line between
possibility and plausibility of entitlement to relief.’ ” Iqbal, 556 U.S. at 663 (quoting Twombly, 550 U.S. at 557).
In reviewing a Rule 12(b)(6) motion, the Court
must accept all well-pleaded facts in the complaint as
true and view them in the light most favorable to the
plaintiff. Sonnier v. State Farm Mut. Auto. Ins. Co., 509
F.3d 673, 675 (5th Cir. 2007). The Court need not accept
legal conclusions as true and will dismiss a complaint
unless it states a plausible claim for relief. Iqbal, 556
U.S. at 678–79. When there are well-pleaded factual allegations, the Court assumes their veracity and determines whether they plausibly give rise to an
entitlement to relief. Id.
“Generally, a court ruling on a 12(b)(6) motion may
rely on the complaint, its proper attachments, documents incorporated into the complaint by reference,
and matters of which a court may take judicial notice.”
Randall D. Wolcott, M.D., P.A. v. Sebelius, 635 F.3d 757,
763 (5th Cir. 2011) (citations omitted). A court may also
consider documents that a defendant attaches to a

App. 36
motion to dismiss if the plaintiff refers to them in the
complaint and they are central to the plaintiff ’s claims.
Collins v. Morgan Stanley Dean Witter, 224 F.3d 496,
498–99 (5th Cir. 2000).
III. ANALYSIS
A

ERISA § 510

Defendant ﬁrst argues that the Court must dismiss Plaintiff ’s § 510 claim because Plaintiff failed to
allege an employment relationship. Def.’s Mot. Dismiss
9, ECF No. 20. Plaintiff responds that she may bring a
§ 510 action against “persons other than the employer
of the person harmed.” Pl.’s Resp. Mot. Dismiss 5, ECF
No. 23.3
Section 510 of ERISA makes it unlawful for any
“person” to “discharge [or] discriminate” against a participant or beneﬁciary for exercising any right to which
they are entitled under ERISA or for giving information or testifying or being about to testify in any
proceeding related to ERISA. 29 U.S.C.A. § 1140. To
state a valid § 510 claim, an employee must allege: “(1)
prohibited (adverse) employer action (2) taken for the
purpose of interfering with the attainment of (3) any
right to which the employee is entitled.” Bodine v. Employers Cas. Co., 352 F.3d 245, 250 (5th Cir. 2003); see
3

At no point does UWW admit to being Plaintiff’s employer.
Nor does Plaintiff allege facts that she was employed by UWW
directly. Instead, Plaintiff bases her claim on UWW’s knowing
failure to respond to the bad acts of its member organization—
UWTC.

App. 37
Van Zant v. Todd Shipyards Corp., 847 F. Supp. 2d 69,
72 (S.D. Tex. 1994). While the Fifth Circuit has not spoken directly to the issue of whether an employment relationship is required as a preliminary step before
bringing a case, Bodine does strongly imply that such
a relationship is a sine qua non of a § 510 claim. Bodine, 352 F.3d at 250; see also Manuel v. Turner Indus.
Grp., LLC, 2016 WL 5349446, at *2 (M.D. La. Sept. 23,
2016) (granting a motion to dismiss for failure to establish an employer relationship with defendant).
In support of her claim that a direct employment
relationship is not necessary to state a claim under
§ 510, Plaintiff cites three out-of-circuit cases dealing
with ERISA, each of which involve a plaintiff suing a
defendant who was an employer or who, at a minimum,
directly interfered with the plaintiff ’s employment relationship. See Simons v. Midwest Tel. Sales & Service,
433 F. Supp.2d 1007, 1013 (D. Minn. 2006) (concerning
a plaintiff ’s claim against the company president);
Warner v. Buck Creek Nursery, Inc., 149 F. Supp.2d 246,
257 (W.D. Va. 2001) (concerning a plaintiff ’s claim
against a part owner and general manager); West v.
Butler, 621 F.2d 240, 245 (6th Cir. 1980) (concerning a
plaintiff ’s claim against a union that demanded the
employer dismiss a member under a union-shop agreement); McCarthy v. Commerce Grp., Inc., 831 F. Supp.2d
459, 492 (D. Mass. 2011) (dismissing a claim against a
parent company when plaintiff failed to prove that the
parent company directly interfered with her employment). None of these cases contemplate a § 510 claim
against a defendant who was neither an employer nor

App. 38
a parent company, and who did not directly interfere
with the employee relationship.
Plaintiff makes no allegations that UWW controlled the employment decisions made by UWTC, or
that UWW had any part in the decision to let Plaintiff
go—merely that UWW was aware and did nothing.
Plaintiff did not allege any facts that would show “unscrupulous conduct or intentional act[s]” taken by
UWW, taken with the purpose of interfering with
Plaintiff ’s rights under § 510. Bodine, 352 F.3d at 250
(citing West v. Butler, 621 F.2d 240, 245 (6th Cir. 1980)
(holding that a violation of § 510 requires “unscrupulous conduct or intentional act[s]”)). For these reasons,
the Court GRANTS Defendant’s motion to dismiss
Plaintiff ’s § 510 claims against it.
B. Civil Rights Act of 1866 (42 U.S.C. § 1981)
Plaintiff brings a discrimination and retaliation
claim against UWW under § 1981. 1st Am. Compl. 10,
ECF No. 15. UWW argues that Plaintiff failed to state
a claim under § 1981 because: (1) Plaintiff failed to allege an employment relationship; and (2) failed to allege UWW’s control over, or involvement in, the acts
that led to Plaintiff ’s termination. Def.’s Mot. Dismiss
21, ECF No. 20. Plaintiff responds that while the Supreme Court held that claims under § 1981 require an
employment relationship, the Supreme Court left open
the possibility that a third party could be liable under
§ 1981 for discrimination and retaliation if it could
be shown that it interfered with the plaintiff ’s

App. 39
employment relationship. Pl.’s Resp. Mot. Dismiss 15,
ECF No. 23 (referencing Domino’s Pizza, Inc. v. McDonald, 546 U.S. 470, 476 (2006)).
Section 1981 of the Civil Rights Act of 1866 protects certain rights of all persons within the jurisdiction of the United States. 42 U.S.C. § 1981. To establish
a claim under Section 1981, a plaintiff must allege
facts in support of the following elements: (1) the plaintiff is a member of a racial minority; (2) the defendant
intended to discriminate on the basis of race; and (3)
the racial discrimination concerns one or more of the
activities enumerated in the statute. Green v. State Bar
of Tex., 27 F.3d 1083, 1086 (5th Cir. 1994). These rights
include the ability “to make and enforce contracts, to
sue, be parties, give evidence . . . ” and all other rights
enjoyed by citizens of the United States. 42 U.S.C.
§ 1981. Plaintiff is an African-American woman, satisfying the ﬁrst element. Moreover, Plaintiff alleges that
UWW committed racial discrimination that interfered
with Plaintiff ’s right to “make and enforce contracts.”
1st Am. Compl. ¶ 129, ECF No. 15. The Court will
therefore consider whether these allegations are adequately pled.
In order to state a claim for intentional discrimination concerning the right to make or enforce a contract under § 1981, “plaintiffs must identify injuries
ﬂowing from a racially motivated breach of their own
contractual relationship, not of someone else’s.” Domino’s Pizza, Inc., 546 U.S. at 480. Plaintiff must also
plead facts of speciﬁc instances in which UWW either
refused to enter into a speciﬁc contract or interfered

App. 40
with an existing contract. Grambling Univ. Nat’l Alumni
Ass’n v. Bd. of Supervisors, 286 F. App’x 864, 869–70
(5th Cir. 2008). Here, Plaintiff alleges that UWW has
inﬂuence over its members, but Plaintiff alleges no
facts that show that UWW took intentional actions of
a discriminatory nature to interfere with Plaintiff ’s
right to make or enforce her contract with UWTC. See
Def.’s Mot. Dismiss 24, ECF No. 20; see also London v.
Coopers & Lybrand, 644 F.2d 811, 818 (9th Cir. 1981)
(holding adverse employment action with intent to discriminate on racial grounds establishes a valid § 1981
claim). Plaintiff does not allege any facts that show intentional actions taken by UWW to interfere with her
employment contract.
While Plaintiff believes UWW is liable for what
she believes is her wrongful termination, courts are
“not prepared to hold that a subjective belief of discrimination, however genuine, can be the basis of judicial relief.” Elliott v. Grp. Med. & Surgical Serv., 714
F.2d 556, 567 (5th Cir. 1983). Accordingly, this Court
GRANTS UWW’s motion to dismiss Plaintiff ’s claim
for failure to plead sufﬁcient facts to establish a § 1981
claim.
IV. CONCLUSION
For the reasons stated above, UWW’s Motion to
Dismiss (ECF No. 21) should be and is hereby
GRANTED. This Court therefore ORDERS that
Plaintiff ’s claims against UWW be DISMISSED
without prejudice. If Plaintiff wishes to ﬁle a second

App. 41
amended complaint curing these deﬁciencies, she may
do so on or before May 2, 2018, or her claims against
UWW will be DISMISSED with prejudice.
SO ORDERED on this 18th day of April, 2018.
/s/ Reed O’Connor
Reed O’Connor
UNITED STATES
DISTRICT JUDGE

App. 42
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
CONEISHA L. SHERROD,
Plaintiff,
vs.
UNITED WAY WORLDWIDE, and UNITED WAY
OF TARRANT COUNTY,
Defendants.

§
§
§
§ Civil Action
§ 4:17:cv-00758-O
§ JURY DEMANDED
§
§
§

PLAINTIFF’S FIRST AMENDED COMPLAINT
TO THE HONORABLE REED O’CONNOR:
Plaintiff Coneisha L. Sherrod presents her First
Amended Complaint for unlawful discrimination and
retaliation in violation of 42 U.S.C. § 1981 and 29
U.S.C. §§ 1132, 1140.
PARTIES
1. Sherrod is a citizen and resident of the United
States, residing in Tarrant County, Texas.
2.
tion.

United Way Worldwide is a New York corpora-

3. United Way of Tarrant County is a Texas corporation.

App. 43
JURISDICTION

AND

VENUE

4. Jurisdiction of this Court is invoked pursuant
to 28 U.S.C. § 1343(a)(4) and 28 U.S.C. § 1331. This is a
retaliation and discrimination suit authorized and instituted pursuant to the Civil Rights Act of 1866, 42
U.S.C. § 1981 (“Section 1981”) and the Employee Retirement Income Security Act (“ERISA”), 29 U.S.C.
§§ 1132, 1140.
BACKGROUND FACTS
5. United Way Worldwide and United Way of Tarrant County retaliated against Sherrod because she
gave information and was willing to testify about matters involving beneﬁts and administration of beneﬁts
covered by ERISA and because Sherrod opposed Defendants denying persons the “right to make” contracts
and denying the same “security of persons and property as is enjoyed by white citizens” in the United
States as required by federal law. See 42 U.S.C. § 1981.
6. United Way Worldwide and its member
United Way organizations have a mission statement
that says, “United Way ﬁghts for the health, education,
and ﬁnancial stability of every person in every community.”
7. United Way Worldwide and its member
United Way organizations distribute money to partner
organizations, such as the Catholic Charities, Meals on
Wheels, the Women’s Center, and Salvation Army.

App. 44
8. United Way World Wide provides guidelines
for the operations of local member organizations, such
as United Way of Tarrant County.
9. United Way Worldwide monitors and oversees
the operations of the member organizations, including
United Way of Tarrant County.
10. United Way’s brand is interdependent and
connected with United Way Worldwide and its member
organizations across the country.
11. United Way donors do not generally differentiate between United Way Worldwide and its member
United Way organizations.
12. United Way Worldwide can call for the resignation of Board Members of United Way organizations,
including United Way of Tarrant County.
13. United Way Worldwide will call for the resignation of Board Members of organizations like United
Way of Tarrant County if there is a risk that people in
Tarrant County are not getting the services they need
because the management team and the organization
itself has lost the trust and conﬁdence of the community.
14. United Way of Tarrant County has about 40
board members who are almost all white.
15. United Way of Tarrant County discontinues
eligibility for its pension beneﬁts.
16. United Way of Tarrant County sets up a special trust fund pursuant to ERISA 457(b), called a

App. 45
Rabbi Trust, for executives to defer the taxability of
compensation.
17. United Way of Tarrant County also sets up
and sponsors an ERISA 403(b) plan to allow all employees to save and invest money in tax deferred accounts.
18. An ERISA 403(b) plan is similar to a 401k
plan but it is for non-proﬁt organizations.
19. United Way of Tarrant County is an administrator of the employees’ 403(b) plan.
20. United Way of Tarrant County selects Mutual of America Life Insurance Company to invest the
employees’ money in the 403(b) plan.
21. United Way of Tarrant County hires a new
Vice-President of Human Resources after the previous
one retires.
22. United Way of Tarrant County’s Chief Executive Ofﬁcer (CEO) tells the new VP of HR that he is
retiring in about four years and that his replacement
has already been selected.
23. United Way of Tarrant County’s CEO tells
the VP of HR that his replacement will be the person
who was the Senior Vice-President of Resource Development and Chief Development Ofﬁcer at the time.
24. United Way of Tarrant County and its CEO
receive information from United Way of Tarrant
County’s VP of HR that she has discovered, because of
an inquiry by an executive of United Way of Tarrant

App. 46
County, that United Way of Tarrant County has failed
to pay all of the beneﬁts to employees as required under the special trust fund; and has discovered from her
own audit that the 403(b) plan has failed to comply
with federal reporting requirements.
25. United Way of Tarrant County and its CEO
express frustration with the Vice-President of HR for
notifying them of the failure to pay beneﬁts and the
failure to follow the reporting requirements.
26. United Way of Tarrant County’s CEO hears
the VP of HR say that the investments of the employees’ money in the 403(b) plan are not being managed
well by Mutual of America Life Insurance Company.
27. United Way of Tarrant County’s CEO tells
the VP of HR that a comparison of Mutual of America
Life Insurance Company with other beneﬁt companies
will be considered later.
28. United Way of Tarrant County’s Senior Vice
President of Community Development expresses interest in the CEO position to the VP of HR.
29. United Way of Tarrant County’s CEO tells
the VP of HR that the decision to replace him with the
Senior VP of Resource Development after he retires
has not been announced to the employees and the position has not been posted for others to apply.
30. United Way of Tarrant County’s CEO hears
the VP of HR express concern that proper protocols for
selecting his replacement need to be followed to avoid
a violation of the discrimination laws.

App. 47
31. United Way of Tarrant County’s CEO hears
the VP of HR say that the qualiﬁcations listed on the
resume of the Senior VP of Community Development,
who is African-American, are clearly better than the
qualiﬁcations listed on the resume of the Senior VP of
Resource Development, who is white.
32. United Way of Tarrant County creates a
planning committee of Board Members to select a successor CEO and eliminates the VP of HR from the selection process.
33. United Way of Tarrant County receives a
complaint from the Senior VP of Community Development that United Way is discriminating against her
based on her race.
34. United Way of Tarrant County’s VP of HR begins to investigate the race discrimination complaint
and ﬁnds some merit to the claim.
35. United Way of Tarrant County, its Chairmen
of the Board, and its CEO exclude the VP of HR, who
is African-American, from continuing to fully participate in the investigation of the complaint.
36. United Way of Tarrant County’s Senior VP of
Resource Development resigns her employment.
37. United Way of Tarrant County settles the
complaint by increasing the Senior VP of Community
Development’s pay.
38. United Way of Tarrant County promotes the
Senior VP of Community Development to Executive

App. 48
Vice-President of Community Development and Chief
Impact Ofﬁcer.
39. United Way of Tarrant County has over 40
partners, such as the Catholic Charities, Meals on
Wheels, and the Salvation Army, that receive money
from United Way of Tarrant County.
40. United Way of Tarrant County tells its partners that it will be giving less money to them because
the level of donations is down.
41. United Way of Tarrant County’s CEO sends a
letter to the partners that employees at United Way of
Tarrant County will not be receiving raises because
the donations are lower.
42. United Way of Tarrant County hires a white
male as Chief Operating Ofﬁcer and Chief Development Ofﬁcer.
43. United Way of Tarrant County, its Chairman
of the Board, and its CEO tell the white male, at the
time he is hired, that he will be the CEO when the current CEO retires.
44. United Way of Tarrant County’s Chairman of
the Board instructs that the current CEO is to receive
a raise.
45. United Way of Tarrant County’s Chairman of
the Board hears the VP of HR tell him she is concerned
about the raise because the CEO sent letters to the
partner agencies that employees will not be receiving
raises at this time.

App. 49
46. United Way of Tarrant County’s Chairman of
the Board expresses frustration to the VP of HR for
raising the concern.
47. United Way of Tarrant County’s Board Members approve the raise for the current CEO.
48. United Way of Tarrant County receives another complaint by the Executive VP of Community
Development about race discrimination and retaliation because she did not receive a raise when she was
promoted to Executive VP, because she was not told
about the opportunity given to the white male, and because she was not considered for the CEO position.
49. United Way of Tarrant County and its current CEO ask the VP of HR to meet with United Way
of Tarrant County’s attorneys concerning the new complaints by the Executive VP of Community Development.
50. United Way of Tarrant County’s CEO says
that if the Executive VP of Community Development
brings litigation that it would be the kiss of death of
her employment with United Way.
51. United Way of Tarrant County’s CEO and its
attorneys say that if another settlement is made with
the Executive VP of Community Development, the termination of her employment must be a part of the settlement.
52. United Way of Tarrant County’s CEO hears
the VP of HR say that they know that the promotion of
the Executive VP was not part of the settlement and

App. 50
that United Way of Tarrant County should not make
that legal argument against the Executive VP.
53. United Way of Tarrant County’s Board elects
a new Chairman of the Board.
54. United Way of Tarrant County’s CEO hears
the VP of HR express concern again about Mutual of
America Life Insurance Company.
55. United Way of Tarrant County’s CEO agrees
to consider whether another company could invest the
employees’ money other than Mutual of America Life
Insurance Company.
56. United Way of Tarrant County is sued by the
Executive VP for race discrimination and retaliation.
57. United Way of Tarrant County’s Compensation Committee schedules a meeting.
58. United Way of Tarrant County’s CEO tells
the VP of HR before she goes into the meeting that the
newly elected Chairman of the Board can be abrasive
and to just take it.
59. United Way of Tarrant County’s newly
elected Chairman of the Board tells the VP of HR in
front of the Compensation Committee and the past
Chairman of the Board that someone more qualiﬁed
and experienced was needed in the VP of HR position.
60. United Way of Tarrant County agrees that
Mutual of America Life Insurance Company needs to
be replaced with another company.

App. 51
61. United Way of Tarrant County’s VP of HR receives complaints from four women complaining about
the Finance Manager’s treatment of them.
62. United Way of Tarrant County’s COO tells
the VP of HR that she does not have necessary skills
to investigate discrimination or retaliation complaints.
63. United Way of Tarrant County’s COO tells
the VP of HR that the COO himself will conduct the
investigation of the complaints because he said that
the complainers were out to get the ﬁnance manager.
64. United Way Worldwide receives a complaint
from the VP of HR that United Way of Tarrant County
is violating discrimination and retaliation laws
against her and others.
65. United Way of Tarrant County’s assistant to
the COO schedules a meeting between the COO and
the VP of HR.
66. United Way of Tarrant County’s VP of HR
contacts the Fort Worth division of the EEOC to report
discrimination and retaliation.
67. United Way of Tarrant County’s CEO hears
the VP of HR say that the COO has breached the conﬁdentiality of the employees’ complaints and that she
has contacted the Fort Worth division of the EEOC.
68. United Way of Tarrant County’s CEO tells
the VP of HR that he will discuss the matter with the
COO.

App. 52
69. United Way of Tarrant County’s assistant to
the COO sends an email to the VP of HR cancelling the
meeting.
70. United Way of Tarrant County terminates
the employment of the VP of HR in an email from the
COO the day after she reported the discrimination and
retaliation to the EEOC and the CEO.
71. United Way of Tarrant County says that the
VP of HR is being terminated for not appearing for
meetings.
72. United Way Worldwide’s Director of Membership Accountability hears the former VP of HR talk
about her treatment, the termination, and the cancelling of the meetings.
73. United Way Worldwide’s Director of Membership Accountability tells the former VP of HR that she
was not being treated properly, that she should be protected as a whistleblower, and that United Way Worldwide would investigate the matter.
74. United Way Worldwide’s Director of Membership Accountability gets the former VP of HR’s permission to tell the attorneys for United Way Worldwide
about what has been happening.
75. United Way Worldwide’s Director of Membership Accountability calls the former VP of HR back and
tells her in a trembling voice that United Way Worldwide will not help the VP of HR.

App. 53
76. United Way of Tarrant County settles with
the Executive VP who agrees to resign.
77.

United Way of Tarrant County’s CEO retires.

78. United Way of Tarrant County makes the
COO the new CEO.
79. United Way of Tarrant County’s VP of HR is
Sherrod.
ADDITIONAL ALLEGATIONS
ABOUT UNITED WAY WORLDWIDE
80. The allegations in this section are made to
address issues raised in United Way Worldwide’s motion to dismiss. (ECF No. 11).
United Way Worldwide Control and Authority
81. United Way Worldwide says that it “is engaged in nearly 1,800 communities across more than
40 countries and territories worldwide.”
82. United Way Worldwide says that “United
Way” generates billions of dollars annually in total revenue, referring to United Way Worldwide and all its
member organizations.
83. United Way Worldwide says that its standards bring member organizations into line.
84. United Way Worldwide said in 2004 that under its new standards it “Disafﬁliated 50 United Ways.”

App. 54
85. United Way Worldwide controls its member
organizations, such as United Way of Tarrant County,
by the licensing of its brand, its membership requirements, reporting, oversight, and training.
86. United Way Worldwide’s bylaws state that
each member organization, such as United Way of Tarrant County, “shall be those United Way organizations
admitted into membership which meet the eligibility
standards and requirements as set forth in Article VI
of these Bylaws.”
87. Article VI of United Way Worldwide’s Bylaws
include as requirements for member organizations in
the U.S.A:
(a) be recognized as exempt from taxation
under Section 501(c)(3) of the Internal Revenue Code as well as under corresponding provisions of other applicable state, local, or
foreign laws or regulations and ﬁle IRS Form
990 annually in a timely manner. Annually, all
Metro 1 and 2 members will submit their entire IRS Form 990 to United Way Worldwide.
(b) comply with all other legal local, state,
and federal operating and reporting requirements (e.g., non-discrimination);
(c) have an active, responsible, and voluntary governing body, which ensures effective
governance over the policies and ﬁnancial resources of the organization;
(d) adhere to a locally-developed and
adopted statement to ensure volunteers and

App. 55
staff broadly reﬂect the diversity of the community it serves;
(e) represent itself as a United Way in accordance with all United Way Worldwide
trademark standards and requirements, including those contained in the licensing
agreement;
(f ) provide ﬁnancial support to United Way
Worldwide in accordance with the agreedupon membership investment formula;
(g) adhere to a locally-developed and
adopted code of ethics for volunteers and staff,
which includes provisions for ethical management, publicity, fund-raising practices, and
full and fair disclosure. All Metro 1 and 2
members will submit a copy of their current
code of ethics to United Way Worldwide;
(h) have an annual audit conducted by an independent certiﬁed public accountant whose
examination complies with generally accepted
auditing standards and generally accepted accounting principles. Exception: organizations
with annual revenue totaling less than the
audit threshold approved by the U.S.A. National Board and Board of Trustees may have
their ﬁnancial statements annually reviewed
rather than audited by an independent public
accountant provided they also conduct an independent internal controls assessment at
least once every three years. Annually, all
members with annual revenue in excess of
a threshold approved by the U.S.A. National Board and Board of Trustees will

App. 56
submit audited ﬁnancial
United Way Worldwide;

statements

to

(i) conduct and submit to United Way Worldwide every three years a community driven
self-assessment of their community impact
work, ﬁnancial management, and organizational governance and decision making;
(j) annually submit Database II and
Amounts Raised Card to United Way Worldwide;
(k) biannually submit Income and Expense
Survey to United Way Worldwide;
(l) adhere to standard accounting guidelines
contained in Database II Survey for reporting
campaign revenue;
(m) adhere to the following cost deduction
standards:
a) charge only actual expenses against
a donor’s pledge
b) will not deduct fundraising or processing fees from designated gifts originating by or from another United Way
organization.
88. A membership requirement particularly related to this case is section (b) requiring that a member organization, such as United Way of Tarrant
County, “comply with all other legal local, state, and
federal operating and reporting requirements (e.g.,
non-discrimination).”

App. 57
89. A United Way Worldwide code of ethic requirement for member organizations is inclusiveness:
involving “every segment of the community in every
aspect of our work, . . . act in ways that respect the dignity, uniqueness, and intrinsic worth of every person,
. . . and “built from the rich diversity and gifts of all
people in all systems.”
90. United Way Worldwide also requires member
organizations, such as United Way of Tarrant County,
to act with integrity and accountability, maintaining
“the highest standards of excellence and accountability, including the prudent use of ﬁnances, and accurate
and honest disclosures of information.”
91. When member organizations such as United
Way of Tarrant County violate the law, such as law governing pension beneﬁts or discrimination, or violate
codes of ethics for inclusiveness, integrity, and accountability, United Way Worldwide can remove the head of
the organization, remove the membership of the organization, and terminate the license of the brand.
92. United Way Worldwide owns registered
trademarks related to the United Way brand.
93. Member organizations must enter into a license agreement for the use of the United Way brand.
94. The license is not assignable and will terminate if membership is terminated or a breach is not
cured within sixty days of notice.

App. 58
95. Upon termination of the license, a member
organization such as United Way of Tarrant County is
prohibited from using the brand, United Way.
96. United Way Worldwide trains board members, executives, and employees in the United Way I.
97. All employees of United Way member organizations are part of United Way Worldwide’s online network for information and training.
98. United Way Worldwide holds annual and
more frequent conferences to instruct and provide
training in doing a United Way job or assignment.
99. United Way Worldwide regularly visits member organizations such as United Way of Tarrant
County to provide training and instruction.
100. Employees of member organizations, such
as United Way of Tarrant County, are encouraged to
participate in United Way Worldwide committees.
101. United Way Worldwide maintains oversight
of its member organizations through annual certiﬁcations and reporting required by United Way Worldwide
of its member organizations, including dues payments.
102. United Way Worldwide requires member organizations, such as United Way of Tarrant County, to
submit to United Way Worldwide annual Membership
Certiﬁcations afﬁrming its obligation “to comply with
the membership eligibility criteria contained in United
Way Worldwide bylaws, and to adhere to the rules and
guidelines for use of United Way Worldwide collective

App. 59
and service membership marks as contained in the
Member Trademark License Agreement.”
103. United Way Worldwide’s annual Membership Certiﬁcations also includes in the afﬁrmation,
“Failure to comply with United Way Worldwide membership eligibility criteria, including payment of membership investment, or to adhere to trademark policies,
may result in termination of United Way Worldwide
membership status.”
104. United Way Worldwide also maintains oversight of its member organizations by an ethics or eligibility committee that monitors and investigates
member organizations’ compliance with the eligibility
criteria.
105. United Way Worldwide also maintains oversight of its member organizations by its Director of
Membership Accountability.
106. United Way Worldwide says that when a
member organization violates the law, it will ﬁrst ask
the organization to act on its own to correct the problem.
107. United Way Worldwide says that if a member organization does not correct itself in a timely fashion, it is very clear that the ﬁrst responsibility of
United Way Worldwide is to protect the United Way
brand.
108. United Way Worldwide says that it wants to
send a message to every member organization that it

App. 60
will not allow them to participate in violations of the
law.
109. United Way Worldwide says that it will take
aggressive action against its member organizations
when necessary.
110. United Way Worldwide’s president has publicly stated that he knows and understands institutional racism and that he likely has beneﬁted from
white privilege.
111. United Way Worldwide removed the head of
a United Way member organization in Washington,
D.C., known as The United Way of the National Capital
Area, that was caught up “in accusations of ﬁnancial
mismanagement, excessive overhead expenses and
management compensation, and efforts to hamper
board oversight.”
112. Commenting on United Way Worldwide’s
removal of the head of a member organization that was
violating the law, the president and chief executive of
another member organization, United Way of Metropolitan Nashville stated publicly, “Donors do not differentiate between the United Ways.” If a member
organization violates the law, it is “going to hurt everyone if it isn’t brought under control – and quickly . . .
The United Way is the United Way is the United Way.”

App. 61
United Way Worldwide Participation
113. United Way Worldwide communicates regularly with its member organizations.
114. United Way Worldwide, in about July 2016,
communicates with the Executive VP about her concerns of United Way of Tarrant County’s exclusion and
marginalization of four executives, including Sherrod.
All four of the executives being excluded are AfricanAmerican. Sherrod is included in the communication.
115. United Way Worldwide responds with instruction as to proper practice for United Way of Tarrant County’s board supervision of employees.
116. United Way Worldwide requests the Executive VP to speak at an event and she advises that she
has a retaliation claim pending against United Way of
Tarrant County.
117. United Way Worldwide tells the Executive
VP that it knows about the complaint and that she
should speak anyway.
118. United Way Worldwide, on February 21,
2017, hears from Sherrod, who is Vice President and a
plan administrator or ﬁduciary of United Way of Tarrant County’s 403(b) plan, that she is being retaliated
against for reporting and correcting ERISA violations,
for opposing race discrimination, for being a witness to
race discrimination, and because of her own race.

App. 62
119. United Way Worldwide tells Sherrod that it
needs to think how to best handle the situation and
will get back with her.
120. United Way Worldwide hears more details
from Sherrod during the week of February 21, 2017.
121. United Way of Tarrant County terminates
Sherrod on March 3, 2017.
122. United Way of Tarrant County sends a severance agreement to Sherrod on March 13, 2017, that
is conditioned on release of her discrimination and retaliation claims, including United Way Worlwide as an
afﬁliate of United Way of Tarrant County.
123. United Way Worldwide informs Sherrod on
March 16, 2017, that it is reviewing her treatment and
the termination decision.
124. United Way Worldwide hears Sherrod’s
story again on May 23, 2017, and says it is shocked,
that it needs to investigate further, and will get back
with her.
125. United Way Worldwide tells Sherrod on
May 24, 2017, that the discrimination and retaliation
was wrong, that it is continuing its investigation, and
will speak to its legal counsel.
126. United Way Worldwide tells Sherrod on
June 1, 2017, that it contacted legal counsel and now
will not be taking any action to help her.
127. United Way Worldwide tells Sherrod to sign
the severance agreement and release her claims.

App. 63
128. United Way Worldwide either participated
in the termination of Sherrod, intentionally interfering
with her employment at United Way of Tarrant County
and knowingly participated in the discrimination and
retaliation; or knew, or should have known, of United
Way of Tarrant County’s discrimination and retaliation and intentionally refused to prevent the discrimination and retaliation.
CAUSES OF ACTION
Section 1981 Violation
129. Sherrod’s claim for recovery under Section
1981 is based upon 42 U.S.C. § 1981, which provides
that all persons within the United States shall have
the same right to make and enforce contracts and to
the full and equal beneﬁt of all laws as is enjoyed by
white citizens. This law entitles a person of color to
equal opportunity and treatment in employment.
Thus, when an employer acts adversely against a person of color because of that person’s race, the law has
been violated and the person of color may ﬁle suit and
recover damages.
130. A person is also entitled to ﬁle suit and recover damages under Section 1981 for retaliation for
opposing or reporting violations of Section 1981, or for
participating in an investigation of a violation of Section 1981.
131. United Way Worldwide and United Way
of arrant County violated the federal statute by

App. 64
intentionally discriminating and retaliating against
Sherrod; and, as a direct result of the discrimination
and retaliation caused damages to Sherrod.
ERISA Violation
132. Section 510 of ERISA makes it “unlawful for
any person to discharge, ﬁne, suspend, expel, or discriminate against any person because he has given information or has testiﬁed or is about to testify in any
inquiry or proceeding relating to [the Employee Retirement Income Security Program] or the Welfare and
Pension Plans Disclosure Act.” 29 U.S.C. § 1140. United
Way Worldwide and United Way of Tarrant County
violated Section 510 of ERISA by discharging, suspending, expelling, or discriminating against Sherrod
because she gave information and was willing to testify
about violations of ERISA related to employee beneﬁt
plans.
133. Section 502 of ERISA provides that a participant, beneﬁciary, or ﬁduciary may bring an action
to enforce rights under beneﬁt plans, clarify rights to
future beneﬁts, and for appropriate relief including to
enjoin any act or practice which violates a provision of
ERISA, to obtain other appropriate equitable relief, to
redress the violations, or to enforce any provisions
ERISA or the terms of the plan.

App. 65
Compensatory and Equitable Relief
134. Sherrod sustained damages, including lost
wages and beneﬁts, future pecuniary losses, emotional
pain, suffering, inconvenience, mental anguish, loss of
enjoyment of life, and other nonpecuniary losses, for
which she is entitled to recovery under her causes of
action. Sherrod is also entitled to declaratory relief
that a violation has occurred and to equitable relief in
the form of reinstatement or an injunction against future discrimination or retaliation.
Exemplary Damages
135. Sherrod is also entitled to receive punitive
damages because United Way Worldwide and United
Way of Tarrant County engaged in a discriminatory or
retaliatory practice or in discriminatory or retaliatory
practices with malice or with reckless indifference to
the federally protected rights of an aggrieved individual.
Attorney’s Fees
136. Sherrod is also entitled to attorneys’ fees,
interest, and costs of court for services rendered in this
cause, including trials and appeals.

App. 66
JURY DEMAND
137. Sherrod requests a trial by jury to the extent allowed by law.
WHEREFORE, Sherrod requests that United Way
Worldwide and United Way of Tarrant County answer
and that on ﬁnal trial, Sherrod have judgment against
United Way Worldwide and United Way of Tarrant
County for compensatory, declaratory, equitable, and
exemplary damages, attorneys’ and expert fees, costs
of suit, and interest as provided by law, and any further
relief to which she may be entitled.
Respectfully submitted,
/s/ Brian P. Sanford
Brian P. Sanford
Texas Bar No. 17630700
bsanford@sanfordﬁrm.com
David B. Norris
Texas Bar No. 24060934
dnorris@sanfordﬁrm.com
THE SANFORD FIRM
1910 Paciﬁc Ave., Suite 15400
Dallas, TX 75201
Ph: (214) 717-6653
Fax: (214) 919-0113
ATTORNEYS FOR PLAINTIFF
CONEISHA SHERROD

App. 67
CERTIFICATE OF SERVICE
I hereby certify that on November 16, 2017, I electronically served the foregoing document on all counsel
of record via the Court’s electronic ﬁling system.
/s/ Brian P. Sanford

